<html>
<title> - HEARING ON USING PRACTICAL DESIGN AND CONTEXT SENSITIVE SOLUTIONS IN DEVELOPING SURFACE TRANSPORTATION PROJECTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                       USING PRACTICAL DESIGN AND
                      CONTEXT SENSITIVE SOLUTIONS
             IN DEVELOPING SURFACE TRANSPORTATION PROJECTS

=======================================================================

                               (111-118)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 10, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE
57-061 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A ARCURI, New York           MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa             VACANCY
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan, Vice 
Chair
BETSY MARKEY, Colorado
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Bolt, Steven B., P.E., PTOE, President, Orth-Rodgers & 
  Associates, Inc................................................     2
Gee, King W., Associate Administrator for Infrastructure, Federal 
  Highway Administration.........................................     2
Kassoff, Hal, Senior Vice President, Parsons Brinckerhoff........     2
Paiewonsky, Luisa M., Administrator, Highway Division, 
  Massachusetts Department of Transportation.....................     2
Peterson, Lynn, Chair, Board of County Commissioners, Clackamas 
  County, Oregon.................................................     2
Stamatiadis, Nikiforos, Ph.D., P.E., Professor of Civil 
  Engineering/Transportation, University of Kentucky.............     2

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

DeFazio, Hon. Peter A., of Oregon................................    27
Duncan, Hon. John J., of Tennessee...............................    29
Oberstar, Hon. James L., of Minnesota............................    35
Richardson, Hon. Laura, of California............................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bolt, Steven B., P.E.............................................    42
Gee, King W......................................................    61
Kassoff, Hal.....................................................    77
Paiewonsky, Luisa M..............................................    88
Peterson, Lynn...................................................   113
Stamatiadis, Nikiforos, Ph.D., P.E...............................   134

                       SUBMISSIONS FOR THE RECORD

Bolt, Steven B., P.E., PTOE, President, Orth-Rodgers & 
  Associates, Inc., response to request for information from Hon. 
  DeFazio, a Representative in Congress from the State of Oregon.    55
Gee, King W., Associate Administrator for Infrastructure, Federal 
  Highway Administration:........................................
      Response to request for information from Hon. DeFazio, a 
        Representative in Congress from the State of Oregon......    70
      Response to request for information from Hon. Richardson, a 
        Representative in Congress from the State of California..    17
Kassoff, Hal, Senior Vice President, Parsons Brinckerhoff, 
  response to request for information from Hon. DeFazio, a 
  Representative in Congress from the State of Oregon............    81
Paiewonsky, Luisa M., Administrator, Highway Division, 
  Massachusetts Department of Transportation, response to request 
  for information from Hon. DeFazio, a Representative in Congress 
  from the State of Oregon.......................................   107
Peterson, Lynn, Chair, Board of County Commissioners, Clackamas 
  County, Oregon, response to request for information from Hon. 
  DeFazio, a Representative in Congress from the State of Oregon.   126
Stamatiadis, Nikiforos, Ph.D., P.E., Professor of Civil 
  Engineering/Transportation, University of Kentucky, response to 
  request for information from Hon. DeFazio, a Representative in 
  Congress from the State of Oregon..............................   159

                         ADDITION TO THE RECORD

Congress for the New Urbanism, John Norquist, President and Chief 
  Executive Officer, written testimony...........................   164

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
 
 HEARING ON USING PRACTICAL DESIGN AND CONTEXT SENSITIVE SOLUTIONS IN 
               DEVELOPING SURFACE TRANSPORTATION PROJECTS

                              ----------                              


                        Thursday, June 10, 2010

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in room 
2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Committee will come to order.
    Ranking Member Duncan observed that our witnesses are eager 
and ready to provide testimony. That is good.
    We are here today, in the context of the continuing 
hearings on the authorization and reauthorization of the 
Surface Transportation Act, whenever that might happen. The 
Obama Administration has not been particularly helpful. So we 
are continuing to work on the bill and hope in the near future 
to have an opportunity to move it.
    Within the draft bill itself, we have included some 
language that Federal Aid Highway projects should look at, this 
has an unfortunate name, but should look at what we call 
practical design. But within the community of engineers and 
wonks out there, practical design and context sensitive 
solutions are very different things.
    But what we are talking about is essentially a combination 
of those two things. We want State DOTs to recognize that they 
don't develop projects in isolation. A number of States have 
actually adopted these sorts of policies of context sensitive 
design or practical design solutions. There are a number of 
good success stories out there, where projects were designed 
outside of the normal parameters of optimal engineering 
solutions to design projects that were more appropriate for 
their communities, fully met the needs of the community, 
actually cost less and were delivered with less controversy.
    So we want to further examine that topic here today with 
this panel. I look forward to your testimony.
    With that, I will turn to the Ranking Member, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here.
    This title, Context Sensitive Solutions, I had an English 
teacher who would have called that a very high-falutin' title. 
Some long-time bureaucrat must have come up with that.
    But anyway, the objectives behind that and practical design 
are certainly commendable. Most people agree that State and 
local transportation officials should adopt strategies that 
minimize the potential adverse effects associated with a 
transportation project. It is important that engineers consider 
the location and surrounding community when designing a road or 
highway. And it is also important to make sure that a road 
should be designed to accommodate the full range of highway 
users and also to take into consideration if there is a heavy 
pedestrian presence in the area and all the factors. Also, I 
think it is important to consider the impact on the surrounding 
community.
    So these are laudable, commendable goals and I am sure we 
are going to hear some important testimony today about what is 
being done in that regard and in addition, to consider ways 
that we can do more with less. Because that is certainly 
something that is going to have to be done. We are going to 
have to get more bang for the buck. And I know that some of the 
testimony this morning will be helpful in that regard, as well.
    So I want to place my full statement into the record and I 
look forward to hearing from the witnesses. I thank you for 
calling this hearing.
    Mr. DeFazio. I thank the Ranking Member for that.
    We will proceed to testimony. We have received and read 
your written testimony, so I would urge members of the panel to 
do their best to summarize their most cogent points, address 
what they consider to be the most critical problems and/or 
attributes of context sensitive solutions. And if anybody here 
can come up with a better name, you will get a special reward, 
something that would make more sense to more people than 
context sensitive solutions.
    [Laughter.]
    Mr. DeFazio. So with that, we will turn first to Mr. Gee.

     TESTIMONY OF KING W. GEE, ASSOCIATE ADMINISTRATOR FOR 
   INFRASTRUCTURE, FEDERAL HIGHWAY ADMINISTRATION; LUISA M. 
  PAIEWONSKY, ADMINISTRATOR, HIGHWAY DIVISION, MASSACHUSETTS 
 DEPARTMENT OF TRANSPORTATION; LYNN PETERSON, CHAIR, BOARD OF 
COUNTY COMMISSIONERS, CLACKAMAS COUNTY, OREGON; STEVEN B. BOLT, 
   PE, PTOE, PRESIDENT, ORTH-RODGERS & ASSOCIATES, INC.; HAL 
KASSOFF, SENIOR VICE PRESIDENT, PARSONS BRINCKERHOFF; NIKIFOROS 
   STAMATIADIS, PH.D., P.E., PROFESSOR OF CIVIL ENGINEERING/
             TRANSPORTATION, UNIVERSITY OF KENTUCKY

    Mr. Gee. Chairman DeFazio, Ranking Member Duncan and 
Members of the Subcommittee, thank you for this opportunity to 
discuss how the Federal Highway Administration is advancing 
context sensitive solutions to ensure that Federal 
transportation investments fit well within communities.
    Context sensitive solutions encompass four core principles: 
striving toward a shared stakeholder vision as a basis for 
decisions; demonstrating a comprehensive understanding of 
contexts; fostering communication and collaboration to achieve 
consensus; and exercising flexibility and creativity to shape 
effective transportation solutions while preserving and 
enhancing community and natural environments.
    There is a clear linkage between these CSS principles and 
livability, which is a key part of the Administration's agenda. 
In addition to livability, these principles support cross-
cutting issues of sustainability, energy conservation and 
climate change. CSS can be applied to all aspects of project 
development, from planning and design to construction, 
operation and maintenance. FHWA has been a leader in the CSS 
area, advocating and advancing the practice, supporting 
partners with research funds and documenting and sharing 
success stories to give practitioners a wide variety of 
examples from which to learn and model.
    I would like to highlight a few of our recent efforts. 
First, the CSS clearinghouse website serves as the definitive 
source to access CSS information and resources. In addition, 
FHWA was a sponsor and contributor to a nationally accepted CSS 
design guide. We recently held five national dialogue workshops 
to review case studies, discuss trends in CSS and identify 
actions for moving forward.
    These illustrate how FHWA is promoting the use of context 
sensitive solutions nationwide to fashion 21st century 
solutions to emerging infrastructure challenges. Mr. Chairman, 
this concludes the summary of my written statement. I would be 
happy to answer your questions.
    Mr. DeFazio. Thank you, Mr. Gee.
    Ms. Luisa M. Paiewonsky, Administrator of the Highway 
Division, MDOT. Go ahead.
    Ms. Paiewonsky. Thank you, Chairman DeFazio, Ranking Member 
Duncan and Members of the Subcommittee. I am Luisa Paiewonsky, 
I am the Highway Division Administrator for the Massachusetts 
Department of Transportation. And I am speaking today on behalf 
of the American Association of State Highway and Transportation 
Officials, which represents the State departments of 
transportation in 50 States, in addition to Washington, D.C. 
and Puerto Rico.
    In May of 1998, 325 engineers, planners, designers, local 
government officials and citizens groups came together at the 
University of Maryland for a national workshop called Thinking 
Beyond the Pavement. The discussion and follow-up actions by 
AASHTO, the Federal Highway Administration and the State DOTs 
marked the beginning of a transformation in the way that we 
deliver transportation projects in a collaborative, 
interdisciplinary way that engages the community and 
stakeholders in crafting appropriate transportation solutions.
    As a result of that workshop, AASHTO went back to the 
drawing board and developed a companion guide to the AASHTO 
green book, the highway design guide, to address flexibility, 
safety, liability and community involvement. In addition, the 
highway community has sponsored significant research, numerous 
workshops and peer exchanges over the past decade to further 
the knowledge base that used the principles of context 
sensitive solutions. These actions have helped expand the use 
of context sensitive solutions among the State DOTs from fewer 
than a dozen back then to the vast majority of States using CSS 
principles.
    In Massachusetts, we are very proud of our project 
development and design guide, which enables us to collaborate 
with our communities in designing flexible, multi-modal 
transportation solutions that are safe, attractive and 
sensitive to the environment. Most recently, June 2nd, our 
Governor Deval Patrick launched a new initiative called 
GreenDOT, a comprehensive environmental responsibility and 
sustainability initiative designed to make us the greenest DOT 
in the Nation and a national leader in greening the State 
transportation system. We will incorporate sustainability in 
all of our activities, from planning to design to maintenance, 
operation and construction, in advancement of three goals: 
reducing greenhouse gas emissions, promoting healthy 
transportation options, such as walking and bicycling, and 
supporting smart growth development.
    Finally, I would like to address practical design. The 
States are facing the tightest budgets that we have faced in 
the last 50 years. Because of this, most of us have to right-
size projects, simply scaling back projects to levels that we 
can afford. The States are not sacrificing safety or 
durability. But we are rethinking the scale and scope of the 
work to get the best value for the least cost, including life 
cycle cost.
    Mr. Chairman, the States have made tremendous progress over 
the past 12 to 15 years by working in collaboration with our 
community partners to deliver and maintain safe, affordable and 
environmentally sensitive transportation systems. I believe 
that we will continue to rise and meet the challenges 
addressing our mobility, social, economic, environmental and 
energy needs.
    Thank you for the opportunity to testify, and I look 
forward to taking your questions.
    Mr. DeFazio. Thank you.
    The Honorable Lynn Peterson, Chair, Clackamas County Board 
of County Commissioners. Ms. Peterson.
    Ms. Peterson. Good morning, Mr. Chairman and Members o the 
Committee. My name is Lynn Peterson. I am the Chair of the 
Clackamas County Commission, one of the three counties in the 
Portland Metro region.
    I am here because I am a former highway design and 
construction engineer and a traffic engineer transportation 
planner within the Portland region and also formerly of 
Wisconsin DOT.
    The reason that I turned into a transportation planner and 
then an elected official is that I wanted to get out of the 
profession. It was becoming more of a profession of plug and 
chug than it was about actual problem-solving and allowing the 
engineers the flexibility to do the types of projects that the 
communities desired.
    What I found is that we need to re-educate our workforce. 
We need a culture and system that promotes an application of 
guidelines, not of blindly following the standards. And while 
the AASHTO guidelines for highway design and construction, 
roadway design and construction are just that, guidelines, they 
are promoted within the industry as standards. And so we need 
to really look at how we apply those standards and what kind of 
fiscal impacts that they are having to the state of 
transportation today.
    I am very excited that there are a handful of States that 
are moving in this direction and that they can say, we can do 
better than this. But they need support from all the political 
levels, including the Federal. The need the flexibility to go 
through a process with the community to better define the 
purpose of the project. They need flexibility in looking at the 
entire transportation system and the management of that system. 
They need flexibility and mobility in roadway design standards.
    And they need more than just encouragement. They need an 
adoption of flexible mobility in roadway design guidelines, 
adoption of incentives to save time and resources and adoption 
of education requirements and more money to educate a new 
workforce. And they need examples of successes. We have two 
projects in Clackamas County I would be happy to talk about, 
one where we actually exited the Federal process because we 
could not give the community what they needed because of the 
Federal process; and also one that we were in the Federal 
process and had to work within that process to deliver our 
project.
    I have also talked to the assistant chief of counsel of 
Missouri DOT about liability issues, if you would like to 
discuss that.
    Finally, I just want to end by saying, engineers are making 
policy decisions. And we at this point and this time in our 
Country need to question whether those are the policies we want 
by default, or if we need to actively engage with what kind of 
policies we want for our Country to save money in the future.
    Thank you.
    Mr. DeFazio. Thank you for an excellent summary.
    Mr. Steven Bolt, President of Orth-Rodgers & Associates, 
Inc. Sir?
    Mr. Bolt. Good morning, Mr. Chairman, honorable Members of 
Congress. Thank you for the opportunity.
    My name is Steve Bolt. I am the President of the American 
Council of Engineering Companies of Pennsylvania. I am also the 
President of the Pennsylvania-based consulting firm, Orth-
Rodgers & Associates.
    I would like to lobby that instead of context sensitive 
solutions or context sensitive design that your new 
nomenclature be smart transportation. That is what I would like 
to talk about this morning. The municipal planning organization 
in our region, the Delaware Valley Regional Planning 
Commission, or DVRPC, hired my firm back in 2004 to develop a 
smart transportation guide book, which was referenced in the 
written testimony.
    Working closely with our partners at both PennDOT and New 
Jersey DOT, we developed a guide book which we completed in 
March of 2008. Since publication, we have been on an active 
tour of both States, but principally in Pennsylvania, to 
educate engineers, municipalities and planners what smart 
transportation means, because it is a wholesale change in the 
way that PennDOT designs and develops transportation projects.
    So broadly, and I'm going to read this quote: ``smart 
transportation is partnering to build great communities for 
future generations by linking transportation investments and 
land use planning in transportation decision-making.'' And from 
that, ten themes have emerged from those general principles. 
First, money counts. Choose projects with a high price to value 
ratio, enhance the local roadway network, look beyond just 
level of service, safety first and maybe safety only, we 
accommodate all modes of transportation, leverage and preserve 
existing investments, build towns and not sprawl, develop local 
governments as strong land use partners and understand the 
context and plan and design within that context.
    That sounds fairly simple. So really, the question might 
be, what is the change from past practice that the planning 
level, previously the DOT, did not involve the municipalities 
in implementation of the transportation improvement program, or 
TIP? Now, the municipalities filter those projects before they 
make it onto the TIP.
    At the design or the engineering level, like Lynn just 
mentioned, the smart transportation guide book gives the 
engineer greater flexibility in design which in turn makes the 
money go a little bit further. Within Pennsylvania, we have two 
recent examples, the slides of which are contained in the 
written testimony. One is Route 202, which was initially 
designed as a limited access expressway with a classic 300-foot 
right of way, and a price tag in excess of $456 million. By the 
time we applied smart transportation principles, we reduced the 
footprint, improved the local roadway network and saved $265 
million.
    The Marshalls Creek Bypass, which was initially designed as 
a four-lane limited access highway and a $70 million price tag, 
subsequent to the application of smart transportation and value 
engineering, we reduced the project and its limits and saved 
$45 million.
    Both of those jobs would be done differently today, and 
were rescued principally due to fiscal constraints. We have a 
better process in place and do better planning with our 
municipal partners. So again, you might ask, why is that not a 
national practice? I think at the planning level, some States 
may be concerned about facilitating their role with the 
municipalities and the change in the way that they do business 
in their traditional role.
    And at the design or engineering level, engineers, as Lynn 
just noted, tend to be conservative folks. Now, when we build 
roads, dams and bridges, we like them to be conservative. But I 
think that by default, tort liability has replaced sound 
engineering judgment by designers, and smart transportation 
provides us the flexibility to begin to exercise sound 
engineering judgment once again.
    Mr. Chairman, I would ask the Subcommittee to develop a 
comprehensive and sustainable long-term funding solution that 
embraces those principles. And I would like just on a personal 
note to leave you with one thought. It has been said that our 
transportation infrastructure is a litmus test of where we will 
be in 10 years as a Nation. Currently, China spends 12 percent 
of its GDP on transportation and infrastructure, Europe 5 
percent, and the United States a mere 2 percent.
    Thank you again for the opportunity.
    Mr. DeFazio. Thank you.
    Mr. Hal Kassoff, Senior Vice President of Parsons 
Brinckerhoff.
    Mr. Kassoff. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to testify. I am Hal Kassoff. I 
am a longstanding member of ITE and in addition to my work at 
Parsons Brinckerhoff, I also served for 12 years as Maryland's 
highway administrator.
    Today I have the privilege of representing the Institute of 
Transportation Engineers' 18,000 members around the world. I am 
proud of the leading role that ITE has played in advancing the 
ability of transportation professionals everywhere to address 
transportation needs in a much broader context of 
sustainability and livability goals.
    Just three months ago at our international meeting in 
Savannah, Georgia, ITE released a remarkable document that was 
prepared through a unique partnership of transportation 
engineers and urban planners, representing ITE and the Congress 
for the New Urbanism, and supported by FHWA and EPA. 
Traditionally, these groups have had different philosophies, 
different goals and expectations, and even different languages 
to describe the same things.
    After nearly a decade of determined effort to cooperatively 
work at both the policy and technical levels, the group 
produced what is already being viewed as a landmark 
publication. The recommended practice, which I am holding in my 
hand here, is called Designing Walkable Urban Thoroughfares: A 
Context Sensitive Approach. The recommended practice is a 
triumph, not only in perseverance, but in its range of coverage 
from philosophical to practical. It gets right down into the 
details: widths of sidewalks, travel lanes, target speeds for 
different types of thoroughfares. And yet it does so in a way 
that encourages the careful consideration of the context from a 
community and land use, as well as a transportation 
perspective.
    Context sensitivity is the key to this recommended 
practice. So what is context sensitivity? What do we mean by 
context sensitive solutions? I like to say that if 
sustainability and livability are the goals we seek, context 
sensitive solutions, or CSS, provides the way to get there. 
Compared to the traditional processes, CSS is much more 
collaborative, more creative, more flexible. The results of 
this process can actually save money and shorten project 
development times.
    To sum up, ITE supports the contextual approach to 
addressing transportation and community needs. We would welcome 
action at the Federal level that would encourage the awareness 
and application of ITE's new recommended practice. But not as a 
mandate, but in conjunction with other very worthy, well-
established design documents and manuals which often, in fact 
almost always have more flexibility in them than are used by 
practitioners.
    Finally, we recognize that not all contexts and not all 
liveable communities are urban. But if sustainability and 
livability goals are what we seek to improve transportation in 
all areas, then CSS, context sensitive solutions, and ITE's 
recommended practice represent a major leap forward in that 
regard.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Dr. Nikiforos Stamatiadis, Professor of Civil Engineering 
and Transportation, University of Kentucky. Go ahead, sir.
    Mr. Stamatiadis. Mr. Chairman and Members of the Committee, 
thank you very much for your time to testify. My name is Nick 
Stamatiadis, and if you pronounce all vowels, it is very easy 
to pronounce. I am, as you identified, a professor of civil 
engineering at the University of Kentucky.
    I don't represent a particular agency or organization. But 
probably I am one of the people that has been involved in the 
CSS since its conception in 1998.
    What I would like to talk about for a few minutes is that 
every project that we undertake has a development and delivery 
process that starts at the planning phases and goes all the way 
to the operations and maintenance. Context sensitive solutions 
is simply a systematic, comprehensive, principle-driven 
approach that we can follow that accomplishes those kinds of 
steps. It is a rational process that considers all phases of 
the project development and uses a set of principles to achieve 
it. The goal, therefore, of CSS, is to follow that process, and 
provide an outcome harmonizing transportation requirements with 
community needs and values.
    Practical design and solutions, as we shared earlier, were 
born from the recent emphasis on budgetary constraints. The 
goal that we have is to provide a customized solution while 
considering a system-wide approach. Some practitioners of these 
points are considering, should we abandon CSS in light of 
practical solutions. In my opinion, practical solutions and 
design is not a substitute for CSS, since all it does is 
emphasize a few of the CSS principles that we have in place, 
namely, the importance of purpose and need and using the agency 
resources effectively.
    The basic idea that we have here is to develop a process 
that can be duplicated time after time that can lead to the 
appropriate results without using a set of standards and 
develop a contextual solution in this case. We have heard a 
number of different names. A few minutes ago, Mr. Bolt talked 
about value engineering. We have heard practical design, 
practical solutions. What we actually need is a project 
development process that will deliver the best fit 
transportation solution for the context, meeting the 
expectations of the agency, the stakeholders and the community, 
taking into account all relevant factors from the beginning to 
the end. CSS can do that for us in a very systematic process.
    Thank you, and I would be glad to answer any questions that 
you might have.
    Mr. DeFazio. Thank you, and I want to thank all the 
witnesses for providing cogent summaries of their opinions. We 
will move forward now with questions.
    It appears there is some disagreement on the panel. There 
doesn't seem to be much disagreement over the merits or the 
potential for CSS and/or CSS mated with practical design as 
having a lot of advantages and benefits. But there is some 
disagreement over whether or not this should be a mandated 
process. I guess I would first turn to Commissioner Peterson, 
who most definitively states that she believes that we need a 
mandate or this won't move forward in short order over a large 
area. Then we will hear from other people who disagree.
    So will you tell us why you believe we would need some sort 
of a mandate, more than just an encouragement that States 
should look at it?
    Ms. Peterson. I think from an engineer's standpoint and a 
policy decision-maker standpoint, it comes down to having clear 
direction on which way the Country wants to go in terms of its 
ability to provide these projects. We have had successful 
implementation of projects, maybe a second or third time around 
through a Federal process, when we have actually learned what 
the actual problem was, maybe hearing it a second or third time 
through the process, maybe not have been listening as closely 
as we could have, and needing to figure out a different way to 
do it, and then asking for exceptions and variances, depending 
on which State you are on. And then the time line to get those 
design acceptances and variances is very long.
    In order to make for clear direction that this is the way 
to go, an ounce of prevention up front, we do need the Federal 
Government to say, this is what our expectation is, both on the 
process and on the design guidelines and mobility guidelines or 
standards. It would save money, but it would also allow for the 
engineers to understand that there is a Federal backing to all 
of this and there is no place to go and point to say, we can't 
do this. Because normally what we hear at the local level is, 
we can't do this because the Federal Government won't allow us. 
Even though I believe FHWA has been doing their very best to 
encourage, things are still very much in the culture that 
believe that the standards are very narrow and they can't do 
anything beyond those, and that there is no innovation 
encouraged. So we need to be more clear than just encouraging.
    The second part is the liability issue and giving clear 
direction on what the process would entail in terms of the 
documentation of sound engineering judgment based on flexible 
standards. I have a small paragraph I could read from the 
Missouri DOT legal counsel if that would be OK, that really, I 
think summarizes it very well.
    Missouri DOT has implemented now for over five years 
practical design. And in those five years, they have managed to 
get more projects out on the road and decrease fatalities on 
their roadway system by 25 percent over five years. In other 
words, they are not chasing fatalities, they are actually 
making the system more safe. He says, ``it is too early to show 
results from tort suits against States using practical design. 
That is probably still seven to ten years out to see enough to 
make any kind of prediction. However, the pluses to consider 
are: practical design means more money to improve more roads; 
more improved roads means safer roads; safer roads means less 
accidents; less accidents means less lawsuits; less lawsuits 
means more money to improve more roads. Repeat cycle.
    The defense of practical design tort claims should be 
survivable, so long as the decisions considered and made are 
documented in the project file. This is real engineering 
judgment that is presumably defensible. However, following 
applicable green book guidelines do not hold the same 
imprimatur in my opinion. We have seen for the past 15 or so 
years an attack on the old way of doing it. Following 
guidelines does not mean that it was the right decision. 
Practical design should provide more explainable defenses.''
    So I think that kind of helps give you the idea of the 
culture we are working in and the clear direction that is 
needed.
    Ms. DeFazio. OK. Ms. Paiewonsky, representing AASHTO. 
AASHTO had good things to say, and you had good things to say 
about the concept. But you oppose a mandate. If it is so good 
and there are so many advantages to it, why wouldn't we want 
everyone to go through this process.
    Ms. Paiewonsky. I think because we have found that the most 
effective way to truly change DOT cultures and approaches to 
design, as we found in Massachusetts, is to have it come 
organically from within. There were conditions, for example, in 
Massachusetts where we were finding it difficult to get 
projects out the door, running up against a lot of opposition 
from communities whom we had traditionally worked with as 
partners. It became self-evident that we needed to change.
    But we needed to change it in a way that was specific to 
our State. We have an enormous number of historic resources. So 
our design guide very much stressed the preservation of 
historic resources. We have a large number of coastal 
resources, which may not be applicable to other States.
    So we found that by getting at the States' design manual, 
or design guide, and working with our engineers and having our 
engineers train one another, that was the most effective way to 
really internalize context sensitive solutions within our own 
agency culture in a way that was appropriate and a good fit for 
our State.
    And then because State DOTs have a culture of sharing best 
practices with one another encouraged by Federal Highway and 
AASHTO, we have sent our own engineers out to share the 
benefits of CSS with other State DOTs. As I mentioned, we have 
numerous workshops. It has really become much more the norm 
than the exception.
    But I think that each State needs to develop a set of 
solutions that is appropriate for that State, so that it is a 
good fit, and it becomes a success that builds upon success.
    Mr. DeFazio. I am a bit puzzled, because it is a process, 
and it uses the word context. And context would go to historic 
resources or coastal resources or other things to put the 
design process within the context of the attributes or 
concerns. So it seems to me you have just sort of re-defined 
context. So I am still not sure of the objective. I have to 
say, my observation, and this would go to my own State 
department of transportation in part and others I have dealt 
with, that they are not open to change unless you hit them over 
the head with a baseball bat. They are just sort of going down 
the path that they have been going down for the last 50 years, 
and maybe there will be a new generation of engineers and 
people will come along.
    But I don't know that we need to wait. So I guess I still 
don't understand your objection. Does anyone have a more 
concrete objection here, not to make a bad pun. Mr. Kassoff?
    Mr. Kassoff. Having worked for the Federal Government and 
State government for a combined 30 years and now in the private 
sector, I have kind of seen it from all sides. Beyond saying 
that NEPA, the spirit of NEPA, the language in the NHS 
legislation in the late 1990's, which set the foundation which 
said we had to consider culture, historic, societal. Very, very 
major step forward.
    With that in mind, I think if Congress endorsed but didn't 
mandate this approach, building on existing tools, it would 
lead toward striving for the high ground. On the other hand, if 
you mandate, my experience is, we will standardize, we will 
homogenize, we will bureaucratize, we will seek to fulfill 
minimum standards and we will race to the low ground instead of 
the high ground. And that is the inevitable result.
    So I think as a matter of policy, saying that projects 
should be contextual, and I think that word contextual is 
important, with all due respect to all the other labels. I have 
never seen, in my years, in the past 12 years since 1998, the 
word ``context'' take off. Not all States have bought in 
totally. But in my travels around the Country, you have a 
critical mass out there of States that are practicing it.
    And the unifying word is context. There is a little bit of 
pushback on terminology. I think if you endorse what I would 
call a contextual approach, building on NEPA, the spirit of 
NEPA, the spirit of the NHS legislation, you would see an 
amazing response as opposed to, 11how can I get away with 
fulfilling the minimum requirements?''
    Mr. DeFazio. OK. Interesting observation. I am particularly 
sensitive to the bureaucratization and standardization. 
Basically you are saying we could ruin it by mandating it.
    Mr. Kassoff. Right. It would be the antithesis.
    Mr. DeFazio. And I know bureaucracy also. So that is 
interesting.
    Does anybody else want to opine? Mr. Gee?
    Mr. Gee. Thank you, Mr. Chairman. I would agree with Mr. 
Kassoff. The example I would bring up is NEPA, in terms of how 
it has become so mechanized. The documents that we get for 
highway projects are voluminous. And it is because it has 
evolved into something that was never really intended. What we 
really wanted to get to is the spirit of the context sensitive 
approach. It is an approach. It is a mind set. And in order to 
change a mind set, I think it is an institutional, cultural 
change that we have been fostering for the last 10 to 15 years. 
Congress has provided consistent guidance since NEPA, as Mr. 
Kassoff says, with ISTEA of 1991 and subsequent legislation 
that has really provided definition but not provided the 
mandate.
    So I think we have been making some good progress in the 
last 10 years. I would share the same thing that Mr. Kassoff 
said, that if you were to mandate it, it would become, as he 
said, a race to the bottom.
    Mr. DeFazio. So maybe endorsement and incentives or 
something along those lines. Anyone else?
    Mr. Bolt. We would prefer, ACEC would prefer that you 
incentivize that, instead of hitting people, like you 
mentioned, Mr. Chairman, with a baseball bat, that you 
incentivize it. I think that we are all in agreement, the 
panel, that it just, if there is a Federal mandate for a new 
set of standards, then folks are just simply going to adopt 
those standards and aren't going to embrace that culture change 
that is so necessary.
    Mr. DeFazio. OK. Doctor?
    Mr. Stamatiadis. Thank you. In principle, I tend to agree 
with Mr. Kassoff. But I think that we need a little bit of a 
stronger language than simply encouraging people. The reason 
why I am saying this is we have been in this process for the 
last 12, 13 years. If you look around the Country, there is a 
handful of States that fully embrace this process. There are 
other States that are trying to find different ways of doing 
things.
    And we have this lack of uniformity, if you will, along the 
level of the States that have accepted the principles of CSS. 
If we let this thing take its natural course, it may be another 
50 years. Neither you nor I will be here debating this issue. 
So I think there is time that we can accelerate the process in 
order for all States to get at least a minimum common 
denominator, whether that will be called CSS, or any other name 
that you will have in place.
    Mr. DeFazio. I will turn now to the Ranking Member, Mr. 
Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I too was very 
impressed with Mr. Kassoff's remarks about homogenizing the 
process and making it a race to the bottom. Certainly, I have 
been one that has been very critical of and skeptical of one 
size fits all solutions for all kinds of things that we have a 
tendency to get into from the Federal level.
    But, let me ask Mr. Gee and Ms. Paiewonsky, CSS proposals 
sometimes talk about increasing the livability of projects and 
also encouraging more involvement by community groups and so 
forth. What I am wondering about is, how do you figure in the 
cost benefit analysis? Livability probably means something 
different to almost everybody.
    I would like to see more people involved in projects, but 
on the other hand, when you have some of these public meetings, 
I have noticed that sometimes the turnout is very low. And the 
people who come are usually the most unreasonable, demanding, 
radical, whatever you want to call it. And how do you find out, 
do you make efforts to try to find out how the silent majority 
feels about some of these projects? I would like your comments 
on some of those things.
    Mr. Gee. Thank you. I think the overall notion, ideally, is 
that you identify who the stakeholders are, or the interest 
holders are, for a given project. In the past, because of the 
way we have been practicing it, a lot of people see it as a 
supporter and an anti kind of a situation when they get to a 
public hearing. The way we are trying to change this whole 
process is that it is not coming up with a preferred 
alternative and then defending why it is the preferred 
alternative, but actually setting it up so there are values 
placed on different interests that people can agree on, that 
there are boundaries for the discussion, so that as you say, 
the extremes don't dominate the discussion.
    So it is setting a level playing ground for everyone to 
talk about their interests and then having a process that can 
evaluate the various interests and come to a consensus about 
what is in the project and what is not in the project.
    Mr. Duncan. Ms. Paiewonsky.
    Ms. Paiewonsky. The largest chapter in our design guide, by 
far, is project development, the portion of it going from the 
very concept of it and getting it through the design. And when 
we were creating our design guide, our big insight was that it 
is important for people who are critics to be accountable to 
one another. For example, in setting up this task force to 
create a design guide, we invited bicycle and pedestrian groups 
who wanted a little more pavement, with conservation and 
environmental groups who wanted a little bit less, versus 
municipalities and chief elected officials and advocates for 
the disabled.
    It is one thing for an advocacy group to come and get in 
our ear and tell us what they want. But when you put them 
around the table and make them accountable to one another for 
their opinions, people tend to look for common ground. Because 
somebody saying, I need more pavement, and saying it to 
somebody else who is trying to preserve wetlands has to account 
for that.
    I will give you an example where we recently made a 
decision. The Longfellow Bridge in Boston, connecting Boston 
and Cambridge, is an iconic structure for both communities, and 
in fact, for the State. It is more than a century old. It is a 
historic structure that lands on either side in the Charles 
River Esplanade, with bicycle, pedestrian, vehicular and the 
Red Line MBTA service running over it every day.
    We filed our environmental assessment in accordance with 
the project development process and found that everyone had a 
different idea for what the bridge should look like. Had we 
followed our process according to our own design guides, our 
own procedures, we would have continued, and we would have 
probably ended up at an impasse. We decided to stop the process 
entirely and create a task force of all these different user 
groups and institutions, hire a neutral outside expert to chair 
it, bring in a facilitator, and have everyone be accountable 
for one another's opinions.
    We think that while this may initially appear to slow the 
process down, ultimately we will get a consensus agreement on 
what to do, and we will save ourselves all kinds of time and 
money.
    The last thing I would say is, by starting early with 
people rather than presenting preferred alternatives and 
telling them to respond to it, asking them what they think the 
purpose and need of the project should be is a much less 
contentious and ultimately a much faster and more efficient 
approach.
    Mr. Duncan. You have touched on a lot of things that are 
exactly what I was getting at. Because in your initial 
testimony, you talked about how your State had had to scale 
back on some projects. Yet you have groups that would want more 
work done toward beautification of the project, you have groups 
that would want more space for bike trails or pedestrian 
walkways. And then you talk about, it is a problem, because 
when we are all trying to do more with less, and as I said in 
my opening statement, get more bang for the buck. On the other 
hand, when you try to make everybody happy, you can reach an 
impasse and never get anything done, I suppose. So, it is a 
real problem.
    Ms. Peterson, what did you mean by your frustration that 
all you were doing was plug and chug work? What is the chug?
    [Laughter.]
    Ms. Peterson. It has been some time. But when you are 
working inside the agency you have a series, basically, of 
worksheets based on the standards. And you don't really look at 
the context necessarily of the community that you are designing 
for. You have been told that you have a congestion problem, go 
solve it. You go to the worksheets, you go to the basic 
standards, and you come up with a intersection design based on 
the fact that there is a lot of congestion. Suddenly you need 
double left turn lane or a double right turn lane. You lay that 
basic concept of an intersection down on the context, and you 
have just wiped out a small downtown.
    That is basically plug and chug. Without taking it to the 
next step and saying, wow, that is maybe what the standards or 
the guidelines say is the optimal for traffic flow. But if I 
went into that community and talked to them about how they are 
actually using the system, I might find out that there are 
different markets. Just like Coca-Cola markets to different 
markets, there are different ways that users are using that 
system. If I talk to them, and have them sit down and say, when 
you have a delivery with that truck, how are you accessing that 
intersection and how do you make that turn? If we just moved 
something a little bit, would you actually have the ability to 
turn and not hold up all that traffic causing the congestion?
    So instead of just blindly putting down a standard and 
saying this is it, and walking away and saying, this is all we 
can build, and it being too expensive and not actually 
accomplishing what the purpose of the project was for the 
community. So that is really what it means.
    Mr. Duncan. We have other Members, so I will just ask one 
more question. Mr. Bolt, you mentioned that the American 
Council of Engineering Companies has concerns about the 
mandate, and you heard several others express their opinion 
about making this a mandated process. You say that additional 
Federal mandates and bureaucratic red tape will certainly not 
help deliver projects faster. Do you have any specific examples 
or do you have any estimates as to how much delay you are 
talking about? And also, Ms. Peterson touched on it, but do you 
think this could potentially increase tort liability in some 
ways? Some people have mentioned that.
    Mr. Bolt. I will do the last first, if I could. We are not 
concerned about tort liability, simply because of the broad 
range of flexibility that currently exists within the AASHTO 
green book and the subsequent flexible design standards. So we 
are not terribly concerned about that. When you look at CSS, it 
is a rational application of those principles. And again, as I 
noted in my earlier testimony, it means that the engineer 
doesn't automatically default to the highest end of the 
spectrum for a range of values, whether it is a lane width or 
whatever.
    Mr. Duncan. All right.
    Mr. Bolt. We are concerned about a Federal mandate, and the 
notion about the preference for incentivizing as opposed to the 
Chair's notion of a baseball bat. Though it is as simple, as 
Hal noted, the cultural change that takes place, we witnessed 
that within Pennsylvania, has taken something like four years. 
Which isn't that long in an institutions life cycle. But that 
is only four years worth of work.
    Mr. Duncan. In most developed nations, they are doing all 
these projects that we deal with in this Committee two or three 
times faster than we do in this country. It is something we 
really need to work on.
    Thank you very, very much.
    Mr. DeFazio. We will recognize Members in the order in 
which they arrived. Ms. Richardson?
    Ms. Richardson. Thank you, Mr. Chairman.
    When we are listening to some of the things that have been 
said so far, I have found it particularly interesting. Ms. 
Paiewonsky, are you here speaking on behalf of AASHTO? OK. We 
were reading in the notes that the green book is a little 
overdue, and it was last produced in 2004. And there are 
references in the memo to it. Do you anticipate bringing that 
back out again for a new revision?
    Ms. Paiewonsky. It is coming out this year.
    Ms. Richardson. Great, OK.
    Mr. Kassoff, why do you think in the last SAFETEA-LU 
authorization there was the opportunity for States to 
participate in a pilot program that would allow the States, 
once a project had met, for example, in California, if we met 
the State requirements of CEQA, then the States could be more 
involved in helping eliminate some of the paperwork and the 
delay of NEPA requirements.
    Why do you think more States haven't taken on and 
participated in that program?
    Mr. Kassoff. Some have. California, I believe, has and I 
think one or two others. There was a limited number of pilot 
States.
    I think there was a lot of concern about the cost that the 
States would incur at a time when States were losing positions, 
which is unfortunate. But I think offering the option was the 
key. So we have seen a handful of States take advantage of that 
opportunity. I think over the long run, more may well do that.
    Ms. Richardson. So is there anything we could do as we look 
forward to the new authorization to encourage that?
    Mr. Kassoff. Well, I think particularly on more local type 
roads that use Federal aid, I think again, statements of policy 
coming out of Congress, I referred to that NHS language. It 
came after ISTEA. And it was hugely powerful language. Because 
it was the intent of Congress.
    So I think the intent of Congress being kind of delegating 
authority where States are ready to pick up that authority 
would be a constructive step.
    Ms. Richardson. Thank you.
    Mr. Gee, the President recently announced the goal of 
increasing exports by 200 percent. When you look at my 
district, which has 45 percent of the entire Nation's cargo 
going through it, I don't see how our roads and infrastructure 
are prepared to do that. What are you suggesting to do to get 
ready for that goal, and do you even think it is possible for 
us to meet that demand?
    Mr. Gee. I think the position is that we need to look at a 
more balanced transportation system and investments, so that 
everything isn't just reliant on trucks on roads. I know that 
from a highway standpoint, that sounds contradictory, but the 
Department has taken a much more multi-modal approach to 
looking ahead to what we need to do.
    Ms. Richardson. So how do you intend upon doing that? 
Because also in my district is the Alameda Corridor. And a lot 
of the goods do go through rail utilizing the corridor. But 
when we can't even get our authorization dealt with and put off 
for a couple of years, how are you suggesting, or what is the 
Administration thinking of, how are you going to fund this to 
get it done?
    Mr. Gee. I think the American Reinvestment and Recovery Act 
provided a direction that we might want to go in with the TIGER 
grants, where it was truly a multi-modal competition for 
discretionary grants, rather than siloed. That, I think, is a 
direction that we are looking at seriously.
    Ms. Richardson. And I think the TIGER grants were 
successful, but part of the problem was, I think you probably 
received almost ten times of the amount of applications than 
what we were able to fund.
    So I will come back to my same question. If the 
Administration has come out with a goal of increasing it 200 
percent, it is one thing to have a goal. But how are we going 
to get there?
    Mr. Gee. We will have to get back to you on that. I am not 
prepared to speak to that issue.
    Ms. Richardson. OK. I will look forward to it. I yield back 
the balance of my time. Thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. DeFazio. I thank the gentlelady.
    Mr. Schauer?
    Mr. Schauer. Thank you, Mr. Chairman, and to the panelists. 
I am a co-sponsor of the Complete Streets bill. I wonder if you 
could talk about that within the context, no pun intended, of 
context sensitive solutions. What is the overlap between those 
concepts?
    Mr. Kassoff. I would like to take a crack at it, because we 
actually have been doing seminars around the Country on what we 
call contextually complete streets. So the spirit and intent 
behind Complete Streets, of providing opportunities for walking 
and bicycling and transit-friendly streets, makes all the sense 
in the world.
    The danger is that we think of every street in the same 
way, and we lose this idea of context. There are inherent 
qualities that each street might have in terms of its traffic-
carrying function, and also in terms of the adjacent land use. 
The street that may have commercial vehicles or heavy bus 
traffic may not be the best street to put the bike lane on. So 
I think we need to look at Complete Streets in a complete 
network concept, looking at all streets in a more comprehensive 
way and having the solution fit on a network basis as well as 
the individual street.
    So I think the two fit perfectly together.
    Mr. Schauer. Anyone else? Mr. Bolt, and then we will go 
down to the end.
    Mr. Bolt. I agree again with Hal. We are just going to 
agree all day long.
    [Laughter.]
    Mr. Bolt. One of the principles for Pennsylvania's smart 
transportation is, right after money counts, but it is to 
accommodate all modes of travel. And it is to build out the 
local roadway network. And all modes of travel means looking 
beyond the simple degree of level of service and the old 
school. And let me refer to that again, the old school, it is 
all about throughput for cars, period. And the new approach 
that PennDOT has adopted within Pennsylvania, and this applies 
to all projects, is to say, when we do a project, we are going 
to look at the local roadway network in a combination of all 
modes.
    Mr. Gee. I think that the current regulations and laws 
actually allow and support Complete Streets. The Secretary has 
come out in favor of livability, as you know. That does involve 
walking and biking and all the other modes, besides cars. We 
have been a strong supporter of Complete Streets, and did 
underwrite the manual. But we also believe that it is not 
necessary to mandate that.
    Mr. Schauer. Go ahead.
    Ms. Peterson. Let me just go a little deeper, and maybe I 
will get a little geeky on you. Context sensitive solutions is 
the process by which you start that conversation with the 
community about the tradeoffs, the values within the community, 
so that you can do a Complete Streets design. When you take 
that design to the engineers, where we need the clear direction 
is that they can actually go and figure it out with the 
flexibility to accommodate all of what the community has just 
said that they want to do. If you just go to a rigid design 
standard, they will come back and say, the only design we can 
give you is this, and it doesn't meet what you just designed 
and you just spend two years working on with the community.
    So that is the disconnect. We can, if you actually get the 
context sensitive solutions process started, you need the 
engineers to be completely in sync all the way through with the 
flexibility at the end to give the community the project that 
they want and can afford. At this point, you either have a 
project that you don't want, or that you can't afford. It 
becomes an all or nothing scenario, and we get caught up for 
another 10 years in how do we actually get this project 
implemented.
    So it is the design standards and the mobility standards. 
Those two things are extremely important to remember.
    Mr. Schauer. Professor?
    Mr. Stamatiadis. I will expand a little bit more on what 
Ms. Peterson just said, and I will emphasize that she has said 
she has a set of principles. I will run quickly through some of 
those, which is using the interdisciplinary team. So you know 
who has to be involved as far as design aspects is concerned. 
Involving the stakeholders, bringing the locals and also 
whatever agencies. Seeking a broad-based public involvement, 
another component in achieving Complete Streets. Use a full 
range of communication methods, addressing alternatives and all 
modes. Here is all the pedestrian, the bicycle, the public 
transportation. Considering a safe facility for all users and 
addressing community and social issues.
    Finally, utilizing a full range of design choices addresses 
what Ms. Peterson was talking about, coming up with a proper 
design for that particular facility. And finally concluding, 
too, which I find the most important principles of CSS, is 
delivering a project that the community wants and desires. The 
second, maintaining a balance between the resources that you 
have available.
    Mr. Schauer. I know my time has expired, Mr. Chairman. This 
is a very fascinating concept to me. I began my career as an 
urban planner and served in local government, which had a 
strong orientation toward citizen participation. I think 
balance is the key.
    What I am interested in, and I represent a district where 
there is an Amish community, so we see horse-drawn buggies. I 
represent some small and mid-size urban communities, suburban 
communities, pretty much everything. I think the commonality, 
and I think this is unsaid here, is job creation, helping to 
create vibrant communities, regardless of the type of 
community, that attracts the type of business and industry that 
is appropriate and relevant for that community. It is going to 
be very different in each community.
    So this is a very intriguing concept, and I expect we will 
discuss it when we move our surface transportation bill. Thank 
you.
    Mr. DeFazio. OK, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman.
    Just reading through some of the testimony that I have 
heard, I just want to either confirm or refute this from the 
panelists. The context sensitive solutions has been suggested 
as an approach to transportation decision-making and design 
that takes into consideration the communities and lands through 
which they pass. Is there an assumption that the local 
communities do not do that?
    Ms. Paiewonsky. I think the communities are often the best 
advocates for those contextual aspects of it.
    Mr. Boccieri. I just wanted that to be confirmed, thank 
you.
    Mr. Gee, in your testimony, you indicated the 
Administration's strong support for the context sensitive 
solutions and practical design. Is the Administration likely to 
address practical design or any related provisions to this in 
the upcoming authorization proposals?
    Mr. Gee. As the Chairman noted earlier, there is a use of 
practical design which is one of the contexts for overall 
solutions. For example, in Missouri, the practice is to really 
look at how much money is available and what you can buy with 
that much money on a project. We submit that the funding 
constraints is one context. The others have been testified to 
by this panel.
    We do not expect that there will be a push for practical 
design in that context. Certainly on the larger notion of 
context sensitive solutions, we are very much behind that.
    Mr. Boccieri. How much input can we realistically evaluate 
would come from the local communities? Do you have an idea?
    Mr. Gee. How much?
    Mr. Boccieri. Yes. All of it? Some of it?
    Mr. Gee. As Ms. Paiewonsky said, it is a matter of 
balancing competing interests. I think the key thing about 
going through a process like context sensitive approaches is 
that it is documented, so that anybody who is disgruntled, can 
always bring a lawsuit. The issue is whether they will prevail. 
I think the context sensitive solutions approach, make sure 
that all the different issues are weighed and valued, and the 
decisions are soundly based, so that it is actually a good one 
for the consensus of the community.
    Mr. Boccieri. In Ohio, we have what is called a track 
process, where some of the local communities get to weigh in to 
the State department of transportation based upon traffic 
mitigation, safety, congestion and the like. Very small weight 
is given to economic development. Do you anticipate this 
superseding that or adjoining those types of decisions?
    Mr. Gee. As the Ranking Member said earlier, one size 
doesn't fit all. We certainly believe that very strongly. 
Whether Ohio's process has everything that we think it should 
have is something that I am not prepared to weigh in on. But I 
think that economic development is one of the issues that is 
very high on the Secretary's issues.
    Mr. Boccieri. Do you anticipate any difficulty trying to 
win over Congressmen and Congresswomen who have used this, in 
the State legislature they have used this for years, decades. 
If this now supersedes it, I think there might be some concern 
that we are pushing the local folks out of the way.
    Mr. Gee. I don't think superseding it is the issue. I think 
it is a balancing of all of the interests and the priorities.
    Mr. Boccieri. OK. Commissioner Peterson, you said it was 
your opinion that it would take a lot of education of our civil 
engineering workforce and students to apply common sense 
engineering. Can you expand upon that?
    Ms. Peterson. They have been taught in one type of 
expectation, and that is to meet what was considered a 
liability issue. Reduce the liability issue by narrowing the 
number of decisions that can be made. Out in the field and the 
design of the project, narrow the amount of decisions made by a 
giant workforce, so that you standardize not only everything 
that is out in the field for the driving public, but you have 
also standardized it internally to reduce that liability.
    I think there are a lot of good engineers. And I think they 
are waiting to be freed from these narrow interpretations of 
myths and legends from 1950 on. I think the most interesting 
thing I have heard, Minnesota is working through this right 
now. And what they have found is, there is a general thing that 
is beat into you in engineering school, especially when you are 
a civil engineer, is that you want to over-design by 20 
percent. In general, you want to over-design by 20 percent. 
Generation after generation has now over-designed by 20 
percent.
    So at some point, we have to actually go back and look at, 
is this really more safe? Is wider, straighter, faster killing 
more people or less people? And that research is just starting 
to go on now, in the last five to ten years. So with more 
research, we know that wider, straighter, faster does kill more 
people in certain instances, but doesn't in others.
    Being able to narrow that down and look at the context, if 
you look at roads up on the mountains in Oregon, 70 percent of 
the fatalities, because of speeding and ice. Well, how does 
wider, straighter, faster help accomplish that? You actually 
have to go out in the field and you have to have been trained 
to say, OK, how do I make this safer within the context of the 
budget, within the context of the values of the community? And 
then come up with a bunch of different options, not just one. 
And really, we are only provided one option in most cases.
    Mr. Boccieri. Thank you for that answer.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Ms. Markey?
    Ms. Markey. Thank you, Mr. Chairman.
    Last week, I visited a transportation project in my 
district, and I hadn't heard of the CSS concept yet. But I 
think it is a good example of it. We were constructing a new 
bridge over the Big Thompson River, which leads into Rocky 
Mountain National Park. And in designing the project, the 
Colorado Department of Transportation worked extensively with 
the community there, because the alternative route was over the 
other side of the mountain.
    The bridge, which had been deemed structurally deficient, 
had steel trusses that were from the mid-century. They are now 
being used as part of the pedestrian bike path within the 
community.
    In addition, they gave the company financial incentives to 
complete the job sooner. It was supposed to be done in two 
weeks and they actually got it done in eight days. And they had 
to go ahead of schedule, but still, even with the financial 
incentives, they did it within cost. So it seems it was a good 
example.
    Can you tell me, the first question, and anyone can really 
answer it, do you think getting community input slows down the 
project at all? Are you concerned about that? And then Mr. 
Kassoff, you mentioned in your testimony that it takes time to 
change old habits in relation to traditional highway 
approaches. How can we speed that up? And really, what can 
Congress do to really change these old habits?
    Mr. Kassoff. First let me remark that the first great 
example of context sensitive solutions certainly for a major 
interstate type highway is in your State. And it was before the 
term context sensitive solutions was ever invented. It is the 
Glenwood Canyon I-70. And the essence of that project, which 
was stalled for 30 years, they recently had a rockslide in that 
area, which pointed out what would have occurred if I-70 
through Glenwood Canyon had not been built. There was a 200 
mile detour. So we would have had a major disconnect.
    What they found was that by reaching out, and this is a 
good example of the difference between, say, what would happen 
under a mandate versus striving for the heights, so to speak. 
They didn't just do normal public involvement, or even 
stakeholder involvement. They went out and reached out, the 
Governor himself, to make sure everyone affected by the project 
was going to be at the table. They didn't just put a collection 
of engineers and planners together and call it an 
interdisciplinary team. They said to that team, unless you 
engage with those stakeholders, and they had to adhere to 
interstate standards, which were demanding.
    The net result was an improvement over what was there 
before, old Route 6, and a breathtaking example of 
transportation efficiency and environmental enhancement and 
environmental stewardship. So I think it can go a lot faster, 
and I think what Congress needs to do is show examples like 
that and say, a contextual approach to transportation 
solutions, such as we have seen in the best examples from rural 
interstates to some wonderful complete street examples in urban 
areas, that is what we are striving to achieve.
    I think the message will be out there, if you don't get 
this taking the high road, then we will have to consider other 
means to get it. The choice should not be, should we be 
contextual. The question is how we get there. And I think the 
high road is the best road, because it is an acculturation 
process, rather than just the lowest common denominator.
    Ms. Markey. Ms. Peterson?
    Ms. Peterson. I think the mandatory versus incentives, I 
think a lot of the incentives you could be looking at are 
increased funding percentage levels for projects that actually 
use this, or for States that adopt and move in this direction. 
You could also look at putting more money into the 
transportation centers, for getting actual education out there 
to the existing workforce, as well as the new upcoming 
students.
    In that context, your State is also moving forward with a 
lot of roundabouts, leading the way. And I am very jealous. But 
the point being, a roundabout has to be designed within the 
context, or you do have a safety issue. You have to understand, 
you have to have that knowledge in the field of how things are 
working. And that is how every intersection works.
    But we are just learning about roundabouts. And we are 
putting a lot of time and energy into doing that. But we 
haven't done that for every part of civil engineering. So we 
really need to look at that.
    And then we need to ask our States to look at different 
funding levels for different project solutions. So don't just 
come with one project that can't be built because there is not 
enough revenue. Come to us with a different set of alternatives 
that would actually meet different funding levels, and you are 
going to have a really different discussion about the tradeoffs 
within the community. And you are going to really start 
thinking about, what are those innovative ways that we can meet 
all those needs without spending a ton of money.
    Ms. Markey. Thank you.
    Ms. Paiewonsky. To answer your question about whether a 
community process slows down a project or not, I think quite 
the opposite. The quickest way to slow down a project is by 
keeping information from the public and trying to force a 
solution on them. If you invest the time at the beginning of 
the project, at the conceptual stage, and ask them to help 
identify goals and needs and why we are all here in the first 
place, and then allow them to develop alternatives with you, 
that is the best way to get a project sailing through the 
process and into construction.
    Mr. Gee. I think on your question about how do we shorten 
the project development process time, Federal Highway 
Administrator Victor Mendez has an initiative that he just 
launched called Every Day Counts. Part of that involves doing a 
lot of the NEPA processes concurrently rather than 
sequentially, and then combining some of the planning and NEPA 
requirements, doing it together instead of sequentially 
dragging it out. So we're looking at how we can shorten that 
process.
    Ms. Markey. Thank you.
    Mr. Stamatiadis. I will address your last part of the 
question, which dealt with how do we get people to the level 
that we want to through education. Being an educator in an 
academic environment, I will strongly advocate what Ms. 
Peterson suggested a few minutes ago. We need to improve and 
enhance our education of undergraduate students, so once they 
come out to the workforce, they are ready to address these 
kinds of issues with the open mind and try to help them through 
that process.
    I think that the existing structure of the university 
transportation centers addresses some of those issues. But we 
need one standard that actually will be able to deal with CSS 
and how we can advance that through academia and eventually 
also through the workforce.
    Ms. Markey. Thank you very much. Mr. Kassoff, I am glad you 
recognized the Glenwood Canyon project. As you mention, it is 
200 miles to go an alternative route. It really is, I think, 
one of the most stunningly beautiful highways in the Country.
    Thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you for the questions.
    We can quickly have a second round, if people wish. 
Commissioner Peterson, you said something in passing. You said 
that your County actually walked away from a Federal project. 
Do you want to expand on that?
    Ms. Peterson. The first project we walked away from the 
Federal process, from the IS process because of the need to 
meet mobility standards and design roadway standards. Or at 
least the interpretation at the local level that we had to meet 
certain standards.
    So what was happening is based on population, traffic 
forecasts, without looking at the entire system, just looking 
at that project area, we were going to be building a five-lane 
cross section, part of a new road through an area that was 
environmentally sensitive and would have impacts on the 
neighborhood, taking it and putting it and directing it right 
at the neighborhood where there is not a road today.
    When we looked at the bigger perspective of how we could 
manage the system, the entire network, we figured out a way 
that if we left the Federal process and just based it on what 
we felt our needs were and what we could give ourselves 
exceptions and variances, we only needed a two-lane roadway, 
managing the system differently but still meeting the ability 
to grow that part of the region into high density office, 
schools, and commercial retail.
    We have found a way to meet the needs, but we are not going 
to put it all in one project, which is what tends to happen 
with these things, is that you tend to focus on project, and 
the project gets giant, because you are trying to accommodate 
all the needs, when actually the system can actually 
accommodate all those needs. So that is the one we walked away 
from, and we are into 30 percent engineering on a two-lane 
roadway that we will be funding ourselves.
    The other one is the Sunrise Corridor, which has been a, it 
is a four-mile road segment that will bypass an industrial 
district that has already gone through most of the Federal 
process. It is close to FEIS adoption. But we had to kind of 
tear it apart when we, instead of getting $1.6 billion for four 
miles of an eight-lane roadway, we really only need in the next 
20 years two lanes. So when the State was able to give us $100 
million and an earmark, and with the Federal approps that we 
have had, we had $130 million, we were able to use the 
practical design concept to actually design what we needed at 
$130 million within the existing FEIS right of way.
    So it can be done. It is more difficult to do it at the 
back end after you haven't used it, when you really don't need 
eight lanes ever in the future. But according to the models, 
according to the mobility standards, according to the road 
design guidelines, we need eight lanes. But in practical terms, 
we can't ever afford $1.6 billion in our State for four miles.
    So those are the two examples within Clackamas County. 
Another example is using the Federal process in a good way, but 
doing practical design up front, instead of building a four-
lane or moving towards a four-lane interstate style connection 
between an interstate and a local State highway, called the I-
5-99W connector, we have decided to move in a direction of 
arterial connectivity within that portion of the region.
    So we will not be building a highway, we will be building a 
series of arterials instead. Because again, the market, the 
users, the uses that were needing roadway capacity were not 
high speed. They were local, regional trips that needed access 
to different parts of the region. That can be accommodated on 
an arterial network that can be built over time instead of a $3 
billion to $5 billion investment.
    Mr. DeFazio. Doctor, when you talked about Kentucky's 
practical solutions initiative, what is the difference between 
what we have been talking about in terms of context sensitive 
solutions and practical design and practical solutions? Or is 
it some sort of combination of the two?
    Mr. Stamatiadis. The biggest difference is the departure 
from the practical design, because our understanding from 
practical design has been that we developed a new set of 
guidelines that they need to be followed to a new set of 
standards. In our perspective, we need to not have any specific 
standards, but we need to start looking at projects and 
guidelines and address them in a more complete or systematic 
way. Practical solutions is pretty much the same, in our 
opinion, as CSS, with a added emphasis on figuring out a 
system-wide approach, so we can stretch our dollars in a more 
effective way.
    So in reality, practical solutions simply exemplifies two 
principles of the ones that we had established. We tried to 
understand the purpose and needs statements in a more 
appropriate way so we can target our solutions, very similar to 
what Ms. Peterson was talking a few minutes ago, and then at 
the same time we emphasize that we need to look at a system-
wide approach, so our resources will be more effectively used.
    Mr. DeFazio. Thank you.
    Ms. Richardson, do you have any other questions? No? OK.
    Well, does anybody on the panel have any last words of 
wisdom for us? Anyone come up with a way to rename this?
    [Laughter.]
    Mr. DeFazio. We will hold the contest open. Yes?
    Mr. Stamatiadis. One final thought. I don't think that we 
need to rename the process. What we need to recognize is that 
we need a process, a systematic process that will allow us to 
move through the project delivery and development in a way that 
we always can repeat. Hence, we need to have those principles, 
and we need to eventually develop a set of metrics that would 
allow us to be accountable on the things that we do.
    So whether we call it CSS, whether we call it practical 
design, practical solutions, smart transportation, you pick the 
name. But it is always one and the same thing, it is a process 
that we can do to deliver projects in the right way.
    Mr. DeFazio. OK. Yes?
    Ms. Peterson. Just one final thought, and that is that 
obviously, the Administration is looking to try and make 
housing and environment and transportation work together. We 
are all trying to do that at the State level. We have always 
been doing that at the local level, as many of you know who 
have come from local elected officialism. That is what you have 
to do at the local level.
    Getting the State and Federal in line with what the local 
needs are and housing, and economic development and the 
environment, transportation is the implementation tool. If we 
don't have the flexibility based on the context of each and 
every different sub-area of every part of region of our entire 
Country, we are going toward that one size fits all. And we 
have done that. And every one of us that has traveled 
everywhere says, oh, look, another interchange with some big 
box retail.
    But I think if we want to get to that ability to meet those 
economic needs, transportation is that tool. It has to be used 
appropriately. It can't be that one size fits all. So I think 
it fits completely within where the Administration has been 
heading in trying to get these things knitted together and 
allowing the flexibility at the Federal level with that clear 
direction allows it on the ground to actually start knitting 
together. That is where I would say thank you for having this 
hearing.
    Mr. DeFazio. Thank you. I want to thank all the members of 
the panel. I appreciate your giving us your time and your 
attention and knowledge on this issue.
    With that, the Subcommittee is adjourned.
    [Whereupon, at 11:24 a.m., the Subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
